OIG Investigative Reports, Federal Jury Convicts DISD Employee
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
U.S. Attorney's Office
Northern District of Texas
FOR IMMEDIATE RELEASE:
Date: March 28, 2007
1100 Commerce St., 3rd Fl.
Dallas, Texas 75242-1699
Telephone (214) 659-8600
Fax (214) 767-0978
Website: http://www.usdoj.gov/usao/txn
Federal Jury Convicts DISD Employee
Following a three-day trial before U.S. District Judge Sam A. Lindsay, a federal jury deliberated less than five hours before convicting Marsha August Ollison, a former employee of the Dallas Independent School District (DISD), on all three counts of a federal indictment charging theft from an organization receiving federal funds, announced U.S. Attorney Richard B. Roper of the Northern District of Texas. Ollison, 43, who has been on bond since her arrest in September, will be sentenced on July 30, 2007, by Judge Lindsay. She faces a maximum statutory sentence of 30 years in prison, a $750,000 fine and restitution.
U.S. Attorney Roper said, "I applaud the jury's verdict. This verdict demonstrates that the citizens of Dallas will not tolerate those who abuse their positions of trust by embezzling public funds."
The government presented evidence at trial that Ollison, of The Colony, Texas, worked as an Administrative Assistant in the Superintendent's office, and was an agent of the DISD. DISD issued credit cards, also known as procurement cards (P-Cards), for use by its employees. DISD funds were used to pay for purchases made with P-Cards, and employees, including Ollison, were instructed in a Procurement Card Manual that P-Cards were "for district purchases only." The government also presented evidence that DISD employees, including Ollison, signed Procurement Cardholder Agreement Forms that stated, "I understand that under no circumstances will I use the procurement card to make personal purchases, either for others, or myself."
The government also presented evidence that during 2004, 2005 and 2006, Ollison embezzled property, valued at approximately $56,000, by purchasing numerous items for her own personal use and for the use of another person with a DISD P-Card. For example, Ollison bought, among other items, 65 vases of varying color, shape and size, women's clothing including underwear, accessories and a leather jacket, personal products such as perfume, makeup, contact lens solution and hair spray, and household items including candles, wine goblets, bedding, and a queen-sized therapeutic mattress cover.
U.S. Attorney Roper praised the investigative efforts of the Federal Bureau of Investigation and the U.S. Department of Education - Office of Inspector General.
The case was prosecuted by Assistant U.S. Attorneys Lynn Hastings and Dayle Elieson.
Top
Printable view
Share this page
Last Modified: 04/04/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov